Case 4:ll-cv-04031-TLB Document 43

Filed 02/10/21 Page 1 of 3 PagelD #: 1117

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF ARKANSAS
TEXARKANA DIVISION
DAVID LOUIS WHITEHEAD
v.

PLAINTIFF
No. 4:1 l-CV-04031

PRESIDENT WILLIAM
JEFFERSON CLINTON, et al.

DEFENDANTS
OPINION AND ORDER

Plaintiff filed a motion (Doc. 41) to amend his complaint and a motion (Doc. 42) “to attach
Plaintiff’s second affidavit with affidavit to motion to vacate, disqualify, recuse and allow attorney
to amend complaint, and request transfer above captioned case to Philadelphia.”
The Court must identify some procedural tension in its duty to apply the law in this case
because there are two separate disqualification or recusal questions that must be answered. The
Court must address whether the undersigned should have recused or been disqualified from this
case at the outset, such that orders and judgments entered in this case must be vacated, and whether
the undersigned should recuse now. Judicial disqualification and recusal are controlled by 28
U.S.C. § 455. With respect to the second question—whether the undersigned should recuse from
matters now pending—the answer is “yes,” because the undersigned presently owns shares of
stock in a named Defendant, General Electric Company.1 28 U.S.C. § 455(b)(4). The Clerk will
be directed to reassign this case, with motions pending.
With respect to the first question, however—whether the undersigned should have recused
or been disqualified from this case at the outset, such that orders entered in and dismissing this

If Plaintiff is arguing that the undersigned should recuse because he was appointed to be
a United States Attorney by one of the former presidents named as a Defendant and a district judge
by another, that issue has already been resolved against Plaintiff. (Docs. 12, 27).
1

Case 4:1 l-cv-04031-TLB Document 43

Filed 02/10/21 Page 2 of 3 PagelD #: 1118

case must be vacated—the answer becomes more complicated. “Discretion is confided in the
district judge in the first instance to determine whether to disqualify himself,... [and a] judge is
as much obliged not to recuse himself when it is not called for as he is obliged to when it is.” In
re Drexel Burnham Lambert Inc., 861 F.2d 1307, 1312 (2d Cir. 1988). Therefore, although most
pending issues must be resolved by the district judge to whom this case is reassigned, it appears
the undersigned still must address the issue of recusal with respect to matters decided in 2011 and
2012, even if the consequence of that decision is to control the Court’s ruling on some matters
pending in motions following reassignment.
Had this issue been spotted at the outset of this case in 2011, recusal would have been
mandatory (and any orders entered likely would have been vacated) because the Court also owned
shares of GE stock at that time. Through oversight and mistake, the Clerk’s office and the Court
did not identify the conflict in a case that named over 100 Defendants who were never served.
Because the present question of whether there should be recusal from the outset of this case arises
almost a decade after this case was filed, the answer now appears to be “no.” Despite the Court’s
oversight in 2011 and 2012, the law is clear that Plaintiff has waited too long to make his request.
“[E]ven though § 455 has no express timeliness requirements, claims under § 455 will not
be considered unless timely made.” In re Kan. Pub. Employees Retirement Sys., 85 F.3d 1353,
1360 (8th Cir. 1996). The timeliness requirement exists to preserve judicial resources and prevent
parties from judge shopping or tactically waiting to raise the issue of judicial disqualification until
after they have received an unfavorable merits determination. See Rubashkin v. United States,
Nos. 13-CV-1028-LRR, 08-CR-1324-LRR, 2016 WL 237119, at *20 (N.D. Iowa Jan. 20, 2016)
(collecting cases). Section 455 motions must be made “at the earliest possible time” after the facts
are known that form the basis for the disqualification. Miller v. Tony and Susan Alamo

2

Case 4:ll-cv-04031-TLB Document 43

Filed 02/10/21 Page 3 of 3 PagelD #: 1119

Foundation, 924 F.2d 143, 146-47 (8th Cir. 1991). The motions pending in this case were filed
years after denial of Plaintiffs first motion for recusal, denial of his interlocutoiy appeal, the
ultimate dismissal of this case for PlaintifFs failure to serve Defendants, and the issuance of
another appellate mandate affirming that decision. The request to disqualify and vacate is
premised on financial disclosures from the undersigned, made in April of 2012. Under the
circumstances of this case, too much time has passed for the undersigned to effect a nunc pro tunc
recusal that would necessitate vacating orders and judgments on that basis. Whether some other
basis than recusal or disqualification exists to justify vacating orders entered in 2011 and 2012
remains a matter for the Court to decide following reassignment.
IT IS THEREFORE ORDERED that the Clerk reassign this case, with motions pending.
IT IS SO ORDERED this 10th day of February, 2021.

P.K. HOLMES, III
U.S. DISTRICT JUDGE

3

6 Or&H-

Western District of Arkansas

https://arwd-ecf.sso.dcn/cgi-bin/Dispatch.pl?! 110666005532

Other Orders/Judgments
4:H-cv-04031-PKH Whitehead v.
Clinton et al CASE CLOSED on
12/08/2011
CLOSED

U. S. District Court
Western District of Arkansas
Notice of Electronic Filing

The following transaction was entered on 2/10/2021 at 2:41 PM CST and filed on 2/10/2021
Case Name:
Whitehead v. Clinton et al
Case Number:
4:11 -cv-04031 -TLB
Filer:
WARNING: CASE CLOSED on 12/08/2011
Document Number: 43
Docket Text:
MEMORANDUM OPINION AND ORDER ; Case reassigned to Honorable Timothy L. Brooks for
all further proceedings. Honorable P. K. Holmes III no longer assigned to case. Signed by
Honorable P. K. Holmes III on February 10, 2021. (cnn)

4:ll-cv-04031-TLB Notice has been electronically mailed to:
4:ll-cv-04031-TLB Notice has been delivered by other means to:
David Louis Whitehead
1906 Scott Street
Bossier City, LA 71111
The following document(s) are associated with this transaction:
Document description:Main Document
Original filename:n/a
Electronic document Stamp:
[STAMP dcecfStamp_ID=1094675213 [Date=2/10/2021] [FileNumber=2013046-0
] [6a33c7ed67f81ec3a40c61186d967bf2a70c07a2306ab5d8cebff0945452ec36152
a8671 c665a37482bec8d829b9bd0faf57714269190beddc9c 181 dc803f367]]

Western District of Arkansas

https://arwd-ecf.sso.dcn/cgi-bin/Dispatch.pl7156091033384

Orders on Motions
4:11-cv-04031-TLB Whitehead v.
Clinton et al CASE CLOSED on
12/08/2011
CLOSED
U. S. District Court
Western District of Arkansas
Notice of Electronic Filing
The following transaction was entered on 2/16/2021 at 2:28 PM CST and filed on 2/16/2021
Case Name:
Whitehead v. Clinton et al
Case Number:
4:ll-cv-04031-TLB
Filer:
WARNING: CASE CLOSED on 12/08/2011
Document Number: 45
Docket Text:
ORDER denying [41] Motion to Amend and denying as moot [42] MOTION to Attach Plaintiffs
Second Affidavit with Affidavit to Motion to Vacate.
The Clerk is DIRECTED not to accept further filings unless Court has given
express approval.
. Signed by Honorable Timothy L. Brooks on February 16,2021. (src)
4:ll-cv-04031-TLB Notice has been electronically mailed to:
4:ll-cv-04031-TLB Notice has been delivered by other means to:
David Louis Whitehead
1906 Scott Street
Bossier City, LA 71111
The following document(s) are associated with this transaction:
Document description:Main Document
Original filename:n/a
Electronic document Stamp:
[STAMP dcecfStamp_ID=l094675213 [Date=2/16/2021] [FileNumber=2014327-0
] [1889a8cb83ec65191 f9a5922c4119e03dbb0f1 c22cd72fb4de2f305451 a00397616
92fe9637f4f768d2dfc9c218d333fcec88a5f7809cea04dad9db363a65034]]

IN THE UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF ARKANSAS
TEXARKANA DIVISION
DAVID LOUIS WHITEHEAD
V.

PLAINTIFF
CASE NO. 4:11 -CV-04031

PRESIDENT WILLIAM
JEFFERSON CLINTON, et al.

DEFENDANTS
ORDER

Now before the Court are several documents filed by the Plaintiff in this closed
case. The first document is styled “Emergency Motion to Allow Attorney for Plaintiff to
Amend His Complaint Within 45 Days.” (Doc. 41). The second document is Plaintiff’s
“Emergency Motion to Attach Plaintiff’s Second Affidavit with Affidavit to Motion to Vacate,
Disqualify, Recuse and Allow Attorney to Amend Complaint and Request Transfer Above
Captioned Case to Philadelphia” (Docs. 42 & 43).
This case was dismissed in an order entered on December 8, 2011. (Doc. 29).
Plaintiff took an appeal of the Court’s order, and the Eighth Circuit dismissed the appeal
on January 11,2012. (Doc. 37). Plaintiff’s first Motion (Doc. 41) asks the Court for leave
to file an amended complaint and for counsel to be appointed to draft it. See Doc. 41, p.
2. “[T]here is no absolute right to amend [pleadings],” and a court may deny leave to
amend under Federal Rule of Civil Procedure 15(b) “upon a finding of undue delay
Baptist Health v. Smith, 477 F.3d 540, 544 (8th Cir.2007). The Court hereby finds that
Plaintiff has unduly delayed in seeking leave to amend his complaint. Further, a civil
litigant has no constitutional or statutory right to a court-appointed attorney, and Plaintiff
has made no attempt to explain why counsel should be appointed to him in this case. IT

1

IS THEREFORE ORDERED that the Emergency Motion to Allow Attorney for Plaintiff to
Amend His Complaint Within 45 Days (Doc. 41) is DENIED.
With regard to Plaintiffs second Motion (Docs. 42 & 43), part of the relief he
requests is that the district judge formerly assigned to this case recuse himself. That
recusal has now taken place, which means that Plaintiffs request is moot. See Doc. 43.
As to any other request for relief that may be construed from the Motion, it is similarly
moot—the case is closed and will not be reopened. IT IS THEREFORE ORDERED that
the Emergency Motion to Attach Plaintiffs Second Affidavit with Affidavit to Motion to
Vacate, Disqualify, Recuse and Allow Attorney to Amend Complaint and Request
Transfer Above Captioned Case to Philadelphia (Docs. 42 & 43) is DENIED AS MOOT.
The Clerk of Court is DIRECTED not to accept further filings in this case from
Plaintiff unless the Court has given express approval.
IT IS SO ORDERED on this 16th day of February 2021^

JkC

UNITED STATES DISTRICT JUDGE

2

!

/•

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No: 21-1333
In re: David Louis Whitehead
Petitioner
Appeal from U.S. District Court for the Western District of Arkansas - Texarkana
(4:11 -cv-04031 -TLB)
JUDGMENT
• •

Before COLLOTON, SHEPHERD, and KOBES, Circuit Judges.
Petitioners motion to proceed in forma pauperis is granted.
Amended petition for writ of mandamus has been considered by the court and is denied.
Mandate shall issue forthwith.
March 10, 2021

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

Appellate Case: 21-1333

Page: 1

Date Filed: 03/10/2021 Entry ID: 5013011

Additional material
from this filing is
available in the
Clerk's Office.

